Office of Inspector General

June 22, 2011

MEMORANDUM

TO:                  David Ostermeyer, Chief Financial Officer
                     Office of the Chief Financial Officer

FROM:                Joy Kadnar, Director /s/
                     Inspections and Evaluations Division, Office of Audit

SUBJECT:             Survey of USAID Negative Unliquidated Obligation Balances in the Financial
                     Management System (Report No. 2-000-11-005-S)

This memorandum transmits the final report on the subject survey. We considered your
comments on the draft in finalizing the report and have included your responses in Appendix II.

This report contains two recommendations to address negative unliquidated obligations
reported in the financial management system. Based on an evaluation of management
comments, management decisions have been reached on Recommendations 1 and 2. A
determination of final action on these recommendations will be made by the Audit Performance
and Compliance Division upon completion of the planned corrective actions.

I appreciate the cooperation and courtesy extended to my staff during this survey.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
SUMMARY
To comply with the Chief Financial Officers Act of 1990, Public Law 101-576 (CFO Act), and
guidance from the Office of Management and Budget Circular A-127, “Financial Management
Systems,” USAID implemented a financial management system. This financial management
system consists of Phoenix—the core accounting system—and various subsystems and tools
that feed into Phoenix or provide financial reports based on Phoenix data.

USAID uses PhoenixViewer, a fast, efficient, and easy-to-use reporting application, to present
financial information from Phoenix data. PhoenixViewer is USAID’s solution for responding to
ad hoc financial reporting requests. Unlike Phoenix, which is available only to users who have
been granted specific access, PhoenixViewer is available to all employees connected to
USAID’s intranet.

The Office of Inspector General (OIG) conducted this survey after analyzing information
gathered during other OIG audits (one of which is described in Appendix III). These analyses
revealed that some reports from PhoenixViewer were reporting negative unliquidated
obligations. Negative unliquidated obligations are disbursement transactions in which the
amount disbursed (spent) exceeds the amount obligated (available to spend). USAID cannot
disburse more than the amount obligated without violating the Antideficiency Act, 31 U.S.C.
1341(a)(1)(A). A violation of this act through the overexpenditure of appropriations, funds,
apportionments, allotments, or earmarks constitutes a funds control violation. The objective of
the survey was to determine why negative unliquidated obligations were being reported in the
financial management system.

The OIG observed $47,094,369 in negative unliquidated obligations reported by PhoenixViewer.
Subsequently, the OIG tested $18,015,368 in negative unliquidated obligations from a report
generated by PhoenixViewer. The OIG observed no such obligations in Phoenix, the core
accounting system.

The negative unliquidated obligations in PhoenixViewer resulted from design features in the
specific report tested. Specifically, the report tested did not accommodate financial transactions
recorded using previously accepted accounting procedures.

The PhoenixViewer report provides unreliable information that is both inconsistent with other
information produced by USAID’s financial management system and misleading because it
creates the appearance of a funds control violation. OIG makes two recommendations to
address this matter.

   Make improvements to the design of the report to provide more reliable and consistent
   financial information (page 5).

   Identify and resolve transactions that cause inconsistent information (page 5).

Our evaluation of management comments is on page 6. Appendix I contains a discussion of the
survey’s scope and methodology. Management comments appear in Appendix II. Appendix III
includes additional background on a 2008 OIG audit of Phoenix.




                                                                                                2
In response to this report, the Chief Financial Officer (CFO) agreed with Recommendations 1
and 2. Based on an evaluation of management comments, management decisions have been
reached on both recommendations.




                                                                                         3
SURVEY RESULTS
A PhoenixViewer Report Presented
Nonexistent Negative Unliquidated
Obligations
A key purpose of the CFO Act is to “provide for the production of complete, reliable, timely, and
consistent financial information for use by the executive branch of the Government and the
Congress in the financing, management, and evaluation of Federal programs.”                   The
Government Accountability Office (GAO) interpretation of the CFO Act, The Chief Financial
Officers Act: A Mandate for Federal Financial Management Reform (AFMD-12.19.4,
September 1, 1991), states, “Agency financial management systems are to provide complete,
reliable, consistent, and timely information. Financial data are to be prepared on a uniform
basis and be responsive to the financial information needs of agency management.” The act
requires USAID to provide reliable and consistent financial information, not only for its annual
financial statements but also to meet the needs of employees responsible for the management
of the agency and its programs.

A negative unliquidated obligation occurs when a disbursement exceeds an obligation, and
might be an indication of a funds control violation. Of the seven people that OIG interviewed in
Washington, D.C.—including bureau and office controllers and individuals performing controller
functions—most mentioned that negative unliquidated obligations should not occur because
system controls in Phoenix are meant to prevent such events from occurring. Hence, the mere
presence of negative unliquidated obligations calls into question the reliability and consistency
of financial information presented in financial reports.

A January 19, 2011, Current Status by Program Element report (the report) produced
$47,094,369 in negative unliquidated obligations. In testing 14 line items, representing
$18,015,368 of the negative unliquidated obligations in the report, OIG found the following:

   In three instances, the accounting data had been corrected. These three instances
   represented $2,018,131 of the total tested. The report did not capture all components of the
   transaction completely, but Phoenix did.

   In four instances, details on the supplemental information for the obligation did not match
   what was recorded for the disbursement. These four instances represented $1,266,862 of
   the total tested. Supplemental information, such as program elements, should be
   consistently recorded for related obligations and disbursements.

   In seven instances, the report contained subobligations exceeding total obligations. These
   seven instances represented $14,730,375 of the total tested. When financial information is
   summarized by total obligations, subobligations should be included in that total.

   All 14 samples included fully liquidated obligations; and in 1 sample refund information was
   not provided. Including fully liquidated obligations and refunds indirectly adds to the amount
   of the negative unliquidated obligations presented, which is not consistent with Phoenix.

The design of the report is the primary reason negative unliquidated obligations are being


                                                                                               4
reported in PhoenixViewer. The report is designed to aggregate financial transactions from
Phoenix data and then derive financial information, including unliquidated obligations. The
report’s design does not easily accommodate changing accounting procedures. For example,
previous accounting procedures did not require program elements to match related transactions
of obligations and disbursements.

When transactions are aggregated by program element, the derived information in the report
presents the total obligations and total disbursements as separate lines of information. When
disbursements do not match obligations on the same line of information, a negative unliquidated
obligation is presented. The report’s difficulty accommodating changing accounting procedures
results in inconsistencies with Phoenix because the aggregated and derived information in the
report is not correct. OIG found no evidence of Phoenix allowing a negative unliquidated
obligation to occur or of funds control violations in the 14 line items tested.

As a result of the report’s design, USAID provides unreliable information when negative
unliquidated obligations are presented in the report. If the report is available to all USAID
employees, including those who do not have access to Phoenix, it should provide reliable and
consistent financial information. If it does not, some USAID employees might misinterpret the
information derived, and use or provide unreliable and inconsistent financial information. The
GAO interpretation states, “The lack of useful financial information impedes the federal
government’s efforts to build an effective financial management structure. Better management
information can be an early warning measure which identifies developing problems before they
reach critical proportions.”     Only through the identification and resolution of negative
unliquidated obligations can more reliable and consistent information be obtained.

To address this problem, this survey makes the following recommendations:

   Recommendation 1. We recommend that USAID’s Chief Financial Officer implement
   improvements in the design of the PhoenixViewer Current Status by Program Element
   report to provide more reliable and consistent financial information.

   Recommendation 2. We recommend that USAID’s Chief Financial Officer identify
   financial transactions and resolve any additional inconsistencies that are presenting
   negative unliquidated obligations in the PhoenixViewer Current Status by Program
   Element report.




                                                                                             5
EVALUATION OF
MANAGEMENT COMMENTS
After evaluating management’s response to the draft report, we have determined that
management decisions have been reached on Recommendations 1 and 2.

Recommendation 1. The CFO agreed with the recommendation. The CFO will review the
report design and determine what improvements can be made to the report. The target date for
completion is December 31, 2011. A management decision has been reached on this
recommendation.

Recommendation 2. The CFO agreed with the recommendation. The improved report,
derived from implementing Recommendation 1, will inform the CFO whether specific
transactions are still causing inconsistencies in the underlying Phoenix data. Thereafter, the
CFO will assess the practicality of resolving these inconsistencies. The target date for
completion is March 31, 2012.         A management decision has been reached on this
recommendation.

Management comments are presented in their entirety in Appendix II.




                                                                                            6
                                                                                    Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General’s Inspections and Evaluations Division conducted this survey of
negative unliquidated obligations in the financial management system. This survey complies
with the general standards in Chapter 3 as well as with the evidence and documentation
standards in Paragraph 7.55 and Paragraphs 7.77 through 7.84 of Government Auditing
Standards. Those standards require that we plan and perform the survey to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
in accordance with the survey objective.

The purpose of this survey was to determine why negative unliquidated obligations were
reported in the financial management system. We conducted this survey in Washington, D.C.,
from January 13 to March 23, 2011. The survey team interviewed bureau and office controllers,
as well as individuals from independent divisions in the Office of the Chief Financial Officer.

Methodology
To answer the survey objective, we identified one report from PhoenixViewer—Current Status
by Program Element—that was reporting the largest amount of negative unliquidated obligations
as of January 19, 2011. Sampling criteria were established to select line items containing
negative unliquidated obligations. Using various PhoenixViewer tools, we tested each line item
to identify the cause of the negative unliquidated obligation. Once a preliminary cause was
established, we examined a subselection of obligation documents supporting the negative
balance in Phoenix to identify any inconsistencies in the unliquidated balance. The samples
were also discussed with the CFO’s staff to confirm our understanding and to identify the
primary reason for the balance being reported from PhoenixViewer.




                                                                                             7
                                                                           Appendix II



MANAGEMENT COMMENTS


Joy Kadnar, Director
Director, Inspections & Evaluations Division
Office of Audit
Office of Inspector General
USAID
Washington, DC 20523

Dear Mr. Kadnar:

       I am pleased to provide the U.S. Agency for International Development’s
Office of Chief Financial Officer’s formal response to the Office of the Inspector
General’s (OIG) Survey of USAID Negative Unliquidated Obligation Balances in
the Financial Management System (Report No. X-000-11-00X-S).

        The enclosed USAID comments are provided for incorporation with this
letter as an appendix to the final report.

      Thank you for the opportunity to respond to the OIG draft report and for the
courtesies extended by your staff in the conduct of this audit review.


                                   Sincerely,



                                   David D. Ostermeyer
                                   Chief Financial Officer
                                   Office of the Chief Financial Officer


Enclosure: a/s

                                                                                     8
                                                                           Appendix II


    USAID COMMENTS ON OIG DRAFT REPORT No. X-000-11-00X-S

Recommendation 1. We recommend that USAID’s Chief Financial Officer
implement improvements in the design of the PhoenixViewer Current Status by
Program Element report to provide more reliable and consistent financial
information.

Management Decision: The CFO concurs that design improvements to the
PhoenixViewer Current Status by Program Element report can be made. The CFO
will review the reporting logic in the design of the PhoenixViewer Current Status
by Program Element report to determine improvements in design. Changes to the
reporting logic for this report will be implemented by December 31, 2011.


Recommendation 2. We recommend that USAID’s Chief Financial Officer
identify financial transactions and resolve any additional inconsistencies that are
presenting negative unliquidated obligations in the PhoenixViewer Current Status
by Program Element report.

Management Decision: The CFO concurs with the OIG observations that negative
obligations presented on the Current Status by Program Element are not actual
negative obligation balances or potential funds control violations. The CFO will
identify the financial transactions that present negative unliquidated obligations in
the PhoenixViewer Current Status by Program Element Report. If updating the
reporting logic used by the PhoenixViewer Current Status by Program Element
does not address the problem of some unliquidated obligations appearing to be
negative, then the CFO will assess the practicality of resolving these
inconsistencies in the underlying data in Phoenix. Identifying these transactions
will be completed by March 31, 2012.




                                                                                      9
                                                                  Appendix II


Clearances:
M/CFO/WFS:RBachman___(draft)__:Date: 06/03/2011
M/CFO/FS:MBowanko___(draft)__:Date: 06/03/2011
M/A-DCFO:CCollins_____________Date:________________



M/CFO/WFS:RBachman:Negative Liquidated Obligations Reportcc.doc




                                                                          10
                                                                                       Appendix III



ADDITIONAL BACKGROUND
In 2008, OIG issued an audit titled “Phoenix Post Implementation Audit of USAID Mission Users’
Needs.” 1 According to the audit report, “the Agency has not fully met its goal to provide its
           FF   FF   F




customers with access to quality information that is timely, accurate, and complete.” Although
80 percent of users surveyed stated that reports (including standard, Business Objects
Enterprise, and PhoenixViewer reports) met their needs, almost 60 percent indicated that
reports needed improvement, predominantly with respect to the quality of their reporting
information. Therefore, the audit concluded that the “Quality of Information and Ability to Create
Reports Needs Improvement.”

The survey also indicated the following:

      Sixty-seven percent of the respondents indicated dissatisfaction with reports.

      Fifty-five percent of the respondents encountered inaccurate data with reports. Users
      identified problems such as summary totals not matching details, pipeline data often
      showing negative balances, end of prior-quarter information showing double the obligated
      amount, and negative open obligations. 2   FF   FF




      Forty-five percent of respondents communicated that reports are either incomplete or do not
      provide useful information.

OIG recommended that the Office of the Chief Financial Officer analyze outstanding reporting
issues and requests from Phoenix users to assess the overall Phoenix users’ information needs.
OIG suggested that this analysis include preparing and implementing a detailed plan with time
frames to (1) fully document mission users’ specific reporting needs, (2) eliminate reporting
gaps in information provided from Phoenix, (3) eliminate unneeded reports supported by the
Agency, and (4) use mission-developed reports to the extent possible.

The Office of the Chief Financial Officer agreed with the recommendation and offered to do the
following:

      Establish and formalize a working group by February 29, 2008, to discuss and document
      mission reporting needs and address gaps in current reporting information provided by
      Phoenix.

      Review and eliminate reports that are no longer used by June 30, 2008.

      Assess mission-developed reports through September 30, 2008, as resources permit.

The recommendation was closed on March 17, 2009, based on management actions.




1
    http://www.usaid.gov/oig/public/fy08rpts/a-000-08-002-p.pdf.
2
    Negative open obligations are also known as negative unliquidated obligations.

                                                                                                11
